                                                     U.S. Department of Justice


                                                     United States Attorney
                                                     District of Maryland


Rod J. Rosenstein                                   36 South Charles Street                       410-209-4800
United States Attorney                              4th Floor                            TTY/TDD:410-962-4462
                                                    Baltimore, Maryland 21201                     410-209-4885
Vickie E. LeDuc                                                                               FAX 410-962-3091
Public Information Officer                                                              Vickie.LeDuc@usdoj.gov


December 21, 2011
FOR IMMEDIATE RELEASE                        CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                      MARCIA MURPHY at (410) 209-4885


      CAPITAL HEIGHTS WOMAN SENTENCED TO OVER TWO YEARS IN PRISON
                       FOR SOCIAL SECURITY FRAUD

        Greenbelt, Maryland - U.S. District Judge Roger W. Titus sentenced Mattie Lee Neal, age
61, of Capital Heights, Maryland, today to 30 months in prison followed by three years of supervised
release for theft of government money. Judge Titus also ordered that Neal pay restitution of
$305,844.40.

       The sentence was announced by United States Attorney for the District of Maryland Rod J.
Rosenstein and Special Agent in Charge Michael McGill of the Social Security Administration
(SSA) - Office of Inspector General, Philadelphia Field Division.

        According to her guilty plea, on November 15, 1994 Neal applied for social security
disability benefits, falsely representing herself to be a family member. Neal began receiving
disability benefits in April 1995. Previously in January 1992, and again later in May 2007, Neal
applied for disability and supplemental security income benefits using her true identity, but SSA
denied her benefits on both occasions.

        On May 23, 2011, SSA agents interviewed Neal at her home. Neal initially identified herself
as the family member, but eventually admitted her true name. Neal admitted that she started using
the family member’s name and social security number in 1989, and collected disability benefits in
the name of the family member since 1994.

        From May 1995 to June 2011, Neal fraudulently collected $305,844.40 in disability benefits
using the family member’s identity.

        United States Attorney Rod J. Rosenstein commended the SSA - OIG for its work in the
investigation and thanked Assistant United States Attorney Christen A. Sproule, who prosecuted the
case.
